                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




                                       September 26, 2002




MEMORANDUM

SUBJECT:      Final Evaluation Report
              Federal Facility Cleanups: EPA Review of Contaminants
              and Increased Funding Levels Needed to Ensure Continued
              Compliance with Superfund at Oak Ridge
              Report No. 2002-P-00013


FROM:         Carolyn Copper
              Director of Program Evaluation
              Hazardous Waste Issues

TO:           Jimmy Palmer
              Regional Administrator
              Region 4

Attached is a copy of the final report on Federal Facility Cleanups: EPA Review of
Contaminants and Increased Funding Levels Needed to Ensure Continued Compliance with
Superfund at Oak Ridge.

On August 20, 2002, we issued a draft report to you and received your response dated September
19, 2002. Your response indicated that you generally agreed with the recommendations and have
implemented corrective action. Based on the recommendations and your response, no further
action is needed to close the assignment in the assignment tracking system.

We have no objections to the further release of this report. If you or your staff have any
questions regarding this report, please contact me at (202) 566-0829. For your convenience, this
report will be available at http://www.epa.gov/oigearth/eroom.htm.
    Office of Inspector General
    Evaluation Report




FEDERAL FACILITY CLEANUPS

EPA Review of Contaminants and Increased
Funding Levels Needed to Ensure Continued
Compliance with Superfund at Oak Ridge


Report No. 2002-P-00013

September 26, 2002




   East Tennessee Technology Park - DOE Oak Ridge Site
Inspector General Offices                Office of Program Evaluation
Conducting the Evaluation:               Washington, DC

                                         Southern Audit and Evaluation
                                         Resource Center
                                         Atlanta, Georgia

Region Covered:                          Region 4

Regional Program                         Waste Management Division
Office Involved:                         Federal Facilities Branch

EPA Headquarters Program                 Office of Solid Waste and Emergency
Office Involved:                         Response

Report Contributors:                     Angela Bennett
                                         Carolyn Copper
                                         John Price
                                         Johnny Ross




Abbreviations

CERCLA       Comprehensive Environmental Response, Compensation, and Liability Act
DOE          Department of Energy
EPA          Environmental Protection Agency
FFA          Federal Facility Agreement
GAO          General Accounting Office
NCP          National Contingency Plan
OIG          Office of Inspector General




     (Cover Photo Courtesy of Bechtel Jacobs, Quick Facts-ETTP Watershed, March 2001)
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                        September 26, 2002


MEMORANDUM

SUBJECT:       Final Evaluation Report
               Federal Facility Cleanups: EPA Review of Contaminants
               and Increased Funding Levels Needed to Ensure Continued
               Compliance with Superfund at Oak Ridge
               Report No. 2001-P-00013

FROM:          John A. Price /s/ John Price
               Project Manager
               Southern Audit and Evaluation
               Resource Center

TO:            Jimmy Palmer
               Regional Administrator
               Region 4

Attached is our report entitled Federal Facility Cleanups: EPA Review of Contaminants and
Increased Funding Levels Needed to Ensure Continued Compliance with Superfund at Oak
Ridge. The objectives of our evaluation were to determine whether: (1) the Oak Ridge Federal
Facility Agreement (FFA) cleanup requirements and related cleanup actions were consistent with
the Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA) and
planned uses for the site; (2) EPA Region 4's oversight of cleanup activities for Oak Ridge was
effective in achieving compliance with CERCLA and FFA requirements; and (3) DOE’s
compliance with CERCLA and FFA requirements was adversely affected by funding limitations.

The report contains issues that describe conditions the Office of Inspector General (OIG) has
identified and OIG recommendations. This report represents the opinion of the OIG and the
findings contained in this report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established EPA resolution procedures.


ACTION REQUIRED

On August 20, 2002, we issued a draft report to you and received your response dated September
19, 2002. Your response indicated that you generally agreed with the recommendations and have
implemented corrective action. Based on the recommendations and your response, no further
action is needed to close the assignment in the assignment tracking system.
We have no objections to the further release of this report. If you or your staff have any
questions regarding this report, please contact me or Angela Bennett, at (404) 562-9830. For
your convenience, this report will be available at http://www.epa.gov/oigearth/eroom.htm.


Attachment
                            Executive Summary
Introduction

                The Comprehensive Environmental Response, Compensation, and Liability Act
                (CERCLA, or Superfund) gives the Environmental Protection Agency (EPA)
                authority and oversight responsibility for the cleanup of hazardous waste sites
                owned and operated by other federal agencies. Department of Energy (DOE)
                facilities represent some of the most contaminated federal facilities. As a result
                of preliminary research at the Hanford facility in Washington State, the OIG
                decided to review remedial actions and related EPA oversight at other selected
                DOE facilities. The Oak Ridge Reservation Site (Oak Ridge), a Superfund site
                in Oak Ridge, Tennessee, was selected for review primarily because the facility
                had the fourth highest estimated long-term cleanup costs of all DOE facilities 1
                ($13.1 billion).

Objectives

                The objectives for this evaluation were to determine whether:

                •    Oak Ridge Federal Facility Agreement (FFA) cleanup requirements were
                     consistent with CERCLA and planned uses for the site;

                •    EPA Region 4’s oversight of cleanup activities for Oak Ridge was effective
                     in achieving compliance with CERCLA and FFA requirements; and

                •    DOE’s compliance with CERCLA and FFA requirements was adversely
                     affected by funding limitations.

Results in Brief

                We found that Oak Ridge FFA requirements and Region 4 oversight were
                effective in ensuring consistency with CERCLA. Remedies approved under the
                FFA generally complied with applicable federal and State requirements and were
                consistent with planned uses for the site. Selected remedies generally addressed
                control and containment of pollutants and were designed to be protective of human
                health and the environment. However, oversight at Oak Ridge could be improved
                by reviewing and evaluating additional studies conducted by the Tennessee
                Department of Health that identified potential contaminants of concern that may
                not be accounted for in existing FFA documents. Without adequate review and


        1
         Estimate includes cost for Oak Ridge, Paducah, and Weldon Springs facilities managed by the Oak Ridge
Operations Office.

                                                      i
         comparison of these contaminants, Region 4 cannot be assured that on-going and
         proposed remedial actions are addressing all contaminants of concern and that
         risks to human health and the environment are being addressed.

         DOE compliance with FAA requirements was adversely affected by insufficient
         funding levels. Funding levels under the FFA were not sufficient to support
         cleanup commitments and maintain a remediation program consistent with FFA
         requirements. Further reductions in funding levels could have significant impact
         on the FFA and on initiation and completion of future cleanup efforts. The overall
         adequacy of DOE’s level of commitment to the FFA’s ongoing remediation
         program has prompted Region 4 and the State to invoke the FFA’s formal dispute
         resolution process. Without sufficient funding levels DOE cannot meet the FFA
         purpose of ensuring that the environmental impacts associated with past and
         present activities at the site are thoroughly investigated and that appropriate
         remedial action is taken to protect public human health and the environment.

Recommendations

         We made several recommendations to the Region 4 Regional Administrator to
         address issues identified, including expediting completion of the review and
         comparison of potential contaminants of concern identified in State Health
         Department reports with past remedial investigation documents; and continuing to
         work with DOE to obtain a level of funding that is sufficient to support cleanup
         commitments and maintain a remediation program consistent with FFA
         requirements.

Agency Comments and OIG Evaluation

         Region 4 generally agreed with the findings and recommendations, and provided
         additional comments to clarify portions of the report. We have incorporated these
         comments and modified the report as appropriate. Further, we have included the
         Region’s comments following each chapter and have included the complete
         response in Appendix 5.




                                          ii
                                Table of Contents
Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


Chapters
       1        Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

       2        Review of Contaminants Needed to Ensure Continued
                Consistency with CERCLA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

       3        Funding Levels Adversely Affect DOE Compliance
                with FFA Milestones . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


Appendices
       1        Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . 15

       2        Prior Reports on Federal Facility Cleanups . . . . . . . . . . . . . . . . . . . . . 17

       3        Records of Decision Issued Under Oak Ridge FFA . . . . . . . . . . . . . 19

       4        Potential Contaminants of Concern . . . . . . . . . . . . . . . . . . . . . . . . . 21

       5        Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

       6        Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25




                                                          iii
iv
                               Chapter 1
                                Introduction
        The Office of Inspector General (OIG) initiated this evaluation based on concerns
        related to certain remedial actions at the Department of Energy (DOE) Hanford
        facility in Washington State, and concerns with Environmental Protection Agency
        (EPA) oversight of the remedial actions. As a result of preliminary research at
        Hanford, OIG decided to review remedial actions and related EPA oversight at
        other selected DOE facilities. Oak Ridge, a Superfund site in Oak Ridge,
        Tennessee, was selected for review primarily because the facility had the fourth
        highest estimated long-term cleanup costs of all DOE facilities at $13.1 billion.

        The specific objectives of our evaluation were to determine whether:

        •    Oak Ridge Federal Facility Agreement (FFA) cleanup requirements were
             consistent with the Comprehensive Environmental Response, Compensation,
             and Liability Act (CERCLA) and planned uses for the site;

        •    Region 4’s oversight of cleanup activities for Oak Ridge was effective in
             achieving compliance with CERCLA and FFA requirements; and

        •    DOE’s compliance with CERCLA and FFA requirements was adversely
             affected by funding limitations.

Background

        DOE Responsibility

        Over the past five decades, DOE and its predecessors were responsible for the
        research, development, testing, and production of nuclear weapons and a variety
        of nuclear related research projects. These activities created significant amounts
        of hazardous chemical and radioactive wastes and contamination at DOE sites
        across the nation.

        In 1980, CERCLA, also referred to as “Superfund,” provided EPA with
        enforcement authority for cleaning up abandoned and inactive contaminated
        waste sites. Section 120 of CERCLA provided EPA with specific regulatory
        enforcement and oversight authority for the cleanup of hazardous waste sites
        owned by other federal agencies, such as DOE. The National Contingency Plan
        (NCP), in 40 Code of Federal Regulations Part 300, establishes the requirements
        for all CERCLA cleanup actions.




                                          1
                 The DOE Environmental Management Program is responsible for cleaning up
                 some 114 sites around the country. At the beginning of fiscal year 2002, DOE
                 had completed cleanup at 74 sites, bringing them into compliance with federal
                 and State environmental laws and regulations. Total life cycle cleanup cost for
                 the remaining sites were estimated at $147 billion in the 1998 Paths to Closure
                 report2. More recently, DOE has estimated total life cycle cleanup costs at $220
                 billion, but DOE acknowledges these costs could easily increase to more than
                 $300 billion.3 At Oak Ridge, of the $13.1 billion in total life cycle cleanup costs
                 estimated by DOE, $3.1 billion was for CERCLA-regulated cleanups.

                 Oak Ridge

                 Established in the early 1940s, Oak Ridge occupies approximately 37,000 acres
                 and is located almost entirely within the city limits of Oak Ridge, Tennessee,
                 approximately 25 miles west of Knoxville. Oak Ridge is composed of three
                 primary areas: the Oak Ridge National Laboratory, the East Tennessee
                 Technology Park, and the Y-12 Plant. Work performed in each of these areas
                 contributed to Oak Ridge’s major role in the enrichment of uranium and the
                 production of plutonium for the first nuclear weapons. Although the primary areas
                 of Oak Ridge are no longer operating in their original capacities, portions of the
                 areas are currently in operation. Federal and contractor employment at Oak Ridge
                 totaled some 12,998 employees, as of December 31, 2001. Current operations, by
                 area, include:

                 •   Oak Ridge National Laboratory, formerly tasked with producing and
                     chemically separating the first gram quantities of plutonium to support the
                     production of the atomic bomb, is now one of the country’s largest multi-
                     disciplinary and multi-program laboratories and research facilities with a scope
                     of work that includes production of isotopes, fundamental research in a variety
                     of sciences, research involving hazardous and radioactive materials,
                     environmental research, and radioactive waste disposal.

                 •   East Tennessee Technology Park, formerly used to provide enriched uranium
                     for nuclear weapons production, now has a multipurpose mission that includes
                     environmental restoration, waste management, technology development and
                     demonstration, education and training, and technology transfer for DOE, other
                     agencies, and the public.




        2
         Department of Energy, Office of Environmental Management: Accelerating Cleanup, Paths to Closure,
June 1998.
        3
         CERCLA-regulated cleanups represent a small portion of these life cycle costs. Only about one-third of
the Environmental Management program budget today is going toward actual cleanup and risk reduction. The
remainder is spent on maintenance, fixed costs, and other activities required to support safety and security.

                                                        2
         •   The Y-12 Plant, formerly used to separate uranium isotopes, has evolved into
             supporting highly sophisticated manufacturing and development engineering
             associated with the production and fabrication of nuclear weapon components.

         As a result of past operations, approximately 4,000 acres of land in parts of the
         three primary areas and in other areas of Oak Ridge have been or have the
         potential to be contaminated. Oak Ridge has approximately 1,100 acres of
         unlined radioactive and mixed waste burial grounds, inactive tanks, surplus
         facilities, and unlined ponds. Contamination is found in the soil, groundwater,
         surface water, and downstream in two major rivers, the Clinch River, bordering
         Oak Ridge, and the Tennessee River further downstream. As of December 2001,
         25 Records of Decision have been approved to address cleanup of contaminants
         found at the site.

         On November 21, 1989, EPA placed Oak Ridge on the Superfund National
         Priorities List. As required by CERCLA and amended by the Superfund
         Amendments and Reauthorization Act, federal facilities on the National Priorities
         List must enter into a interagency agreement with EPA for the expeditious
         completion of all necessary remedial action at the facility. Accordingly, DOE
         signed an FFA with EPA and the Tennessee Department of Environment and
         Conservation (the State) that became effective on January 1, 1992. The FFA
         established a procedural framework and schedule for developing, implementing,
         and monitoring appropriate response actions at the Site in accordance with
         CERCLA, the NCP, the Resource Conservation and Recovery Act, the National
         Environmental Policy Act, appropriate guidance and policy, and State laws. As a
         compliance agreement, the FFA provides for enforceable milestones and penalties
         for non-compliance.

         EPA Oversight

         The Federal Facilities Branch within Region 4's Waste Management Division is
         principally responsible for oversight and implementation of the Oak Ridge FFA.
         The Federal Facilities Restoration and Reuse Office within the Office of Solid
         Waste and Emergency Response is responsible for EPA’s federal facility oversight
         policies and provides support to regional oversight programs.

Scope and Methodology

         This evaluation was performed in accordance with the Government Auditing
         Standards, issued by the Comptroller General of the United States. We assessed
         management controls and compliance with applicable laws and regulations. We
         did not identify any instances of noncompliance with statutory or regulatory
         requirements.




                                          3
          The evaluation fieldwork was primarily performed at Region 4 in Atlanta, Georgia;
          DOE Oak Ridge Operations Office in Oak Ridge, Tennessee; and the Tennessee
          Department of Environment and Conservation Office, also located in Oak Ridge,
          Tennessee. The evaluation included a review of the FFA and related CERCLA
          remedial activities from January 1, 1992 through December 2001.

          See Appendix 1 for details on Scope and Methodology.

Prior Coverage

          This is the OIG’s first evaluation of Region 4’s oversight of DOE cleanup actions
          at Oak Ridge. Similar OIG evaluations at DOE’s Hanford facility in Washington
          State, and at the Savannah River Site near Aiken, South Carolina have been
          conducted. The EPA OIG, DOE OIG, DOE Program Management, and the
          General Accounting Office (GAO) have performed numerous reviews directly or
          indirectly related to federal facility hazardous waste cleanups. See Appendix 2 for
          a list of reports directly or indirectly related to this evaluation.

          In May 2002, GAO’s report, Waste Cleanup-Status and Implications of DOE’s
          Compliance Agreements, included a review of six compliance agreements,
          including the Oak Ridge FFA. Similar to our review, GAO looked at overall
          compliance with milestones, budgets and funding levels, and relative risk and
          prioritization. The results of GAO’s review were considered in our evaluation.




                                           4
                               Chapter 2
      Review of Contaminants Needed to Ensure
        Continued Consistency with CERCLA
          Oak Ridge FFA requirements and EPA oversight were considered effective
          in ensuring consistency of remedial actions with CERCLA. Remedies approved
          under the FFA generally complied with applicable and appropriate requirements
          and were consistent with planned uses for the site. Selected remedies generally
          addressed control and containment and were designed to be protective of human
          health and the environment. However, the Region’s oversight can be improved by
          reviewing and comparing potential contaminants of concern identified in reports
          issued by Tennessee’s Department of Health with contaminants of concern
          addressed in various FFA cleanup decision documents. Without this review EPA
          cannot be assured that on-going and proposed remedial actions are addressing all
          contaminants of concern and that subsequent remedies will be protective of human
          health and the environment.

Requirements

          CERCLA established EPA’s hazardous substance release reporting and cleanup
          program, and the NCP sets forth the process and regulations for conducting
          Superfund cleanup actions. The NCP provides that a remedy shall be selected
          based on whether it provides:

          •   Overall protection of human health and the environment.
          •   Compliance with Applicable or Relevant and Appropriate Requirements.
          •   Long-term effectiveness and permanence.
          •   Reduction of toxicity, mobility, or volume through treatment.
          •   Short-term effectiveness.
          •   Implementability (including technical feasibility).
          •   Cost effectiveness.

Oversight Sufficient to Ensure Compliance With CERCLA and FFA
Requirements

          The Oak Ridge FFA establishes the roles and responsibilities of DOE, Region 4,
          and the State for the CERCLA activities at Oak Ridge and further provides
          processes and operating procedures to ensure effective and efficient
          implementation of the FFA. Region 4 generally completed its review and
          approval of Oak Ridge cleanup decision documents, work products, and
          deliverables within specified time-frames. Additionally, Region 4 actively



                                          5
                  participated in establishing work scope, priorities, and schedules/milestones
                  under the FFA.

Remedies Generally Addressed Control or Containment

                  Remedies selected by DOE and approved by Region 4 and the State generally
                  addressed control and containment of hazardous wastes. Of the 25 Records of
                  Decision approved under the FFA since inception in 1992, 16 included source
                  control and containment-type remedies. The remaining 9 Records of Decision
                  included 4 with no further action required, 4 with institutional controls4 , and 1
                  for an environmental waste management facility. Refer to Appendix 3 for Records
                  of Decision issued under the FFA. These remedies generally represented proven
                  cleanup techniques used by EPA and responsible parties on other Superfund sites.
                  The cleanup goals/levels for remedial actions were consistent with statutory and
                  regulatory requirements and the planned uses for the site. The overall end state of
                  the site is assumed to be composed of some combination of controlled access,
                  restricted and unrestricted industrial use, and open space/recreation. Since many
                  remedial actions leave hazardous wastes in-place, the remedies included
                  institutional controls to ensure protectiveness to human health and the
                  environment.

                  Whether the remedies will ultimately meet remedial goals and objectives and
                  provide the protectiveness to human health and the environment, as set forth in
                  the applicable Records of Decision, can only be determined over the long term.
                  Thus far, five-year reviews of Oak Ridge remedial actions have indicated that
                  completed actions continue to meet remedial goals and provide adequate
                  protection to human health and the environment.

Risks From Potential Contaminants of Concern Have Not Been
Thoroughly Reviewed

                  The Region’s oversight has primarily focused on the review and evaluation of
                  specific FFA activities and related documents and has not always included review
                  of other information relevant to cleanup decisions and actions at Oak Ridge. For
                  example, in 1999 the Tennessee Department of Health issued a series of reports
                  which showed that, in some cases, levels of pollutants being released from Oak
                  Ridge were substantially higher than previously acknowledged by the federal
                  government.5 These reports, referred to here as the Dose Reconstruction reports,
                  document the results of the Oak Ridge Health Agreement Studies, a nine-year,
                  $14 million effort to evaluate historical contaminant releases from Oak Ridge and

         4
           Institutional controls may include land access controls (fencing, security, signs, surveillance), and/or use
restrictions (deed, drilling, fish advisories).
         5
          Tennessee Department of Health, Reports of the Oak Ridge Dose Reconstruction, Volumes 1-7, 1999.

                                                           6
         related health problems among nearby residents. The studies, primarily funded
         by DOE, were performed from 1991 to 1999, and represented independent
         assessments of contaminant releases from the three Oak Ridge facilities. The
         studies addressed a variety of potential contaminants of concern from each of
         the three areas (see Appendix 4 for a list of these contaminants).

         The Dose Reconstruction reports were issued after Region 4's review and
         concurrence with the DOE remedial investigations. However, neither DOE
         nor Region 4 adequately evaluated the impact the reports may have on current
         remedial activities. Region 4 said that a thorough review of the Dose
         Reconstruction reports was not performed at that time because resources were
         not available to evaluate such “non-FFA” reports. Rather, FFA-related activities
         and oversight required all of the Region’s available resources.

         Although no comparisons were made between the Dose Reconstruction reports
         and the remedial investigations, DOE was confident that all potential contaminants
         of concern identified were evaluated in the remedial investigation process and are
         appropriately being addressed. However, we believe that without comparisons
         between specific contaminants identified in the Dose Reconstruction reports and
         those evaluated during the remedial investigations, DOE has no assurance that all
         the contaminants identified in the reports are being appropriately addressed in
         current remedial activities.

         Region 4 told us that they have concerns that not all contaminants identified in
         the Dose Reconstruction reports were evaluated or addressed in Oak Ridge’s
         remedial investigation process. In April 2002, during our review, the Region
         initiated a comparison of the Dose Reconstruction reports with all contaminants
         evaluated in the DOE remedial investigations and the K-25 Leasing Baseline
         Environmental Assessment reports. However, because of limited contract
         resources, Region 4 staff estimated it would take at least two years to complete
         the review. According to Region 4, the amount of time and resources needed
         depend upon whether contaminants identified require on-site sampling and testing
         to determine potential impacts to human health and the environment. Until this
         review and comparison is completed, Region 4 cannot be assured that all
         contaminants are being addressed, that remedies are protective, and that
         unaddressed threats to human health and the environment do not exist.

Conclusion

         The FFA requirements for Oak Ridge are generally consistent with CERCLA
         and the NCP. Documentation maintained by Region 4 supports that the selected
         remedies for contaminants identified at Oak Ridge were based on realistic
         expectations that such remedies would also meet the requirements of CERCLA
         and NCP for the specific media addressed in the remedy. However, based on
         Tennessee State Health Department reports issued subsequent to certain Oak

                                          7
         Ridge remedial investigations, the potential exists that all contaminants may not
         have been identified, adequately evaluated, and addressed in selected remedies.

Recommendation

         We recommend that the Region 4 Administrator:

         2-1    Expedite review and comparison of potential contaminants of concern
                identified in the Dose Reconstruction Reports to contaminants of concern
                in Oak Ridge remedial investigations and other FFA primary decision
                documents, and determine the impacts and possible need for changes in
                completed and on-going remedial activities.

Agency Comments and OIG Evaluation

         Region 4 agreed with this recommendation and has already begun its review and
         comparison of potential contaminants of concern identified in the Dose
         Reconstruction Reports to contaminants of concern in Oak Ridge remedial
         investigations and other FFA primary decision documents. Upon completion of
         this review, the Region indicated it will determine the impacts and possible need
         for changes in completed and on-going remedial activities.




                                           8
                                           Chapter 3
     Funding Levels Adversely Affect DOE Compliance
                  with FFA Milestones
                 Funding levels under the Oak Ridge FFA have not been sufficient to support
                 milestone commitments and maintain a remediation program consistent with FFA
                 requirements. The overall adequacy of DOE’s level of commitment to the FFA’s
                 ongoing remediation program has prompted Region 4 and the State to invoke the
                 FFA’s formal dispute resolution process.

                 Continued cuts in funding levels may have significant impact on the FFA and on
                 initiation and expeditious completion of future cleanup efforts. Increasing costs
                 for long-term response actions have and will continue to impact remedial funding
                 levels, and may preclude or significantly limit new cleanup actions. Without
                 sufficient funding levels, DOE cannot meet the overall FFA purpose of ensuring
                 that the environmental impacts associated with past and present activities at the
                 site are thoroughly investigated and that appropriate remedial action is taken, as
                 necessary, to protect human health and the environment.

CERCLA and FFA Require Adequate Funding and Expeditious Cleanup
of Federal Facilities

                 CERCLA requires an agreement between federal agencies and EPA on the
                 expeditious completion of all necessary remedial actions, and that remedial actions
                 at facilities subject to interagency agreements be completed as expeditiously as
                 practicable. The Oak Ridge FFA provides that DOE shall, in good faith, take all
                 necessary steps to obtain sufficient funding to comply with the provisions of the
                 agreement.


Funding Levels Not Sufficient to Support Milestone Commitments

                 Funding levels under the Oak Ridge FFA were not sufficient to support milestone
                 commitments and maintain a remediation program consistent with FFA
                 requirements. Specifically, DOE had not acquired sufficient funding to support
                 compliance with approved work plans and milestones as reflected in FFA
                 Appendix E, for the period Fiscal Year 2002-2004.6 As a result, DOE has
                 proposed significant changes to Appendix E milestones that would delay the


        6
            Appendix E work plan, due annually under the FFA, sets forth the enforceable milestones for the
current fiscal year, plus two more years. The Appendix J work plan, also due annually, includes the unenforceable
milestones for the third year.

                                                        9
                 beginning of remedial investigation field starts and/or extend the overall period
                 needed to complete major remediation projects on which DOE, EPA, and the State
                 have focused most of their planning and evaluation resources.

                 EPA and the State do not agree with DOE’s proposed changes and are currently in
                 a formal dispute with proposed changes for approximately 30 current and future
                 years’ project milestones.7 DOE’s proposed changes to current and future work
                 plan milestones will result in multiple year delays in project completions with some
                 milestones being moved beyond the 3-year FFA planning period for enforceable
                 milestones. EPA and the State believe that DOE has not demonstrated a good
                 faith effort to obtain required funding to meet all of its milestones. Region 4
                 believes that the overall Oak Ridge funding shortfall for 2002, and future years’
                 work plans as a whole, appears to have fallen disproportionately on FFA-related
                 activities. For Fiscal Year 2002, DOE Oak Ridge planned to offset $48.4 million
                 of a $60.7 million shortfall in its overall 2002 funding allocation by cutting FFA
                 remediation expense categories while maintaining funding increases for other
                 budget categories.


Without Sufficient Funding, Hazardous Releases and Related Human
Health and Environmental Risks Will Continue Unabated

                 Completion of cleanups may be delayed by funding limitations. As discussed
                 above, Region 4 only participates in DOE’s annual budget allocation process,
                 which encompasses a 3-year planning period. Although DOE periodically provides
                 Region 4 with long-term cost estimates, the information is limited and not
                 sufficient to determine whether the current and projected funding levels will result
                 in expeditious cleanups at the site.

                 DOE, with concurrence of EPA and the State, has developed a strategy for
                 managing its long-term cleanup program based on a comprehensive watershed
                 approach to planning remediation. Therefore, it is particularly important to have
                 reliable long-term estimates of cleanup costs. If completion of significant
                 components of the watershed remediation decisions is delayed by funding
                 limitations, and longstanding, unacceptable offsite releases of contaminants
                 continue, the longer term and broad goals associated with the watershed approach
                 will be more difficult to reach. The watersheds addressed under this cleanup
                 approach include: East Tennessee Technology Park, Bear Creek Valley, Upper
                 East Fork Poplar Creek, and Bethel and Melton Valley portions of the Oak Ridge
                 National Laboratory. Using the watershed cleanup strategy, the parties have made
                 long-term remediation decisions for major portions of Melton Valley and Bear
                 Creek Valley. The decision process for remediation of Bethel Valley and parts of

        7
          On March 28, 2002, EPA notified DOE of its formal statement of dispute and invoked the FFA dispute
resolution process.

                                                     10
               Upper East Fork Poplar Creek and East Tennessee Technology Park is near
               completion. Implementation of response actions related to these decisions will not
               only provide risk reduction benefits but will also significantly reduce the release of
               uranium into the surface water of Bear Creek; release of cesium-137, tritium, and
               strontium-90 into White Oak Creek; and release of mercury into the Upper East
               Fork Poplar Creek. Cleanup will also facilitate the reindustrialization and
               continued viability of East Tennessee Technology Park.

               Figure 1. Oak Ridge Site Map




Recent Reviews Acknowledge Problem with Funding and Related
Timeliness of Cleanups

               A recent GAO report on compliance agreements governing cleanups at DOE sites,
               stated that DOE is concerned that deferring activities that support milestones in
               future years may cause future milestones to be missed or renegotiated.8 Generally,
               the sites’ target estimates and actual funding received have been below the sites’
               full requirements estimates. According to GAO, DOE officials are concerned that
               recurring years of funding below the “full requirements” level could result in
               growth of future funding needs that eventually may cause DOE to fail to meet
               milestone dates and/or require it to renegotiate milestones.

               DOE’s recent review of its Environmental Management Program indicated that its
               facilities had not properly focused program resources on quickly reducing risk to


       8
         GAO report, Waste Cleanups-Status and Implications of DOE’s Compliance Agreements, GAO-02-567,
May 2002.

                                                  11
            public health and the environment and had expended resources for low risk
            activities.9 The report further indicates that an extended cleanup schedule will
            eventually lead to more prolonged and severe public health and environmental
            risks. The report recommends that program resources be increased and focused
            principally on cleanup actions that achieve the greatest risk reduction at an
            accelerated rate. Moreover, the report emphasizes that it would be inefficient as
            well as environmentally unacceptable, to prolong these risks by making an
            inadequate commitment to implement remediation projects. Region 4 has
            acknowledged this is especially true in the case at Oak Ridge given that its
            watershed-scale projects have already been prioritized to achieve risk reductions
            based on technical risk evaluations.

Conclusion

            DOE’s lack of commitment to provide adequate funding levels has adversely
            affected compliance with FFA milestone commitments, resulting in delays in the
            initiation and expeditious completion of remedial activities, as well as the
            continued release of hazardous substances that pose risk to human health and the
            environment. Appropriate action has been initiated by Region 4 and the State to
            facilitate DOE compliance with FFA requirements.

Recommendations

            We recommend that the Region 4 Administrator:

            3-1 Work with DOE to obtain a level of funding that is sufficient to support
                milestone commitments and maintain a remediation program consistent
                with meeting the purpose of the FFA.

            3-2 Work with DOE to obtain long-term cost estimates that are sufficient to
                determine whether current and projected funding levels will result in
                expeditious cleanups at the site.

Agency Comments and OIG Evaluation

            Region 4 agreed to work directly with DOE and the State to obtain a level of
            funding that is sufficient to support milestone commitments and maintain a
            remediation program consistent with meeting the purpose of the FFA. The
            Region noted that since the OIG completed its draft report, EPA, the State,
            and DOE have resolved the work plan dispute (i.e. Appendix E) without
            extending the overall period needed to complete major remediation projects.



    9
     Department of Energy, A Review of the Environmental Management Program, February 4, 2002.

                                               12
Additionally, Region 4 is working with DOE Oak Ridge and the State to obtain
long-term cost estimates that are sufficient to determine whether current and
projected funding levels will result in expeditious cleanups at the site.




                               13
14
                                                                                             Appendix 1

                    Details on Scope and Methodology
The Oak Ridge evaluation was performed by the OIG from September 2001 through July 2002.
We evaluated controls established by the Oak Ridge FFA to ensure consistency and compliance
with applicable laws, regulations, and policies, and Region 4’s implementation of these procedures
to ensure that remedial actions initiated by DOE were protective of human health and the
environment to the maximum extent practicable.

To assess consistency of the FFA and related remedial actions with CERCLA and the NCP, we:

‘ Compared FFA provisions to requirements in CERCLA and the NCP.

‘ Identified all 25 remedial actions approved by Region 4 under the FFA and reviewed decision
  documents and supporting data for each action.

‘ Reviewed Oak Ridge FFA annual progress reports to ascertain EPA and State review and
  concurrence with FFA remedial actions.

‘ Interviewed officials regarding: (1) the consistency of FFA requirements with CERCLA and
  NCP; (2) any Regional guidance pertaining to federal facility cleanups and the consistency of
  guidance with CERCLA and the NCP; (3) whether Oak Ridge-selected remedies met
  statutory and regulatory requirements; and (4) whether there were concerns with any Oak
  Ridge remedies to date.10

To assess the adequacy of Region 4 oversight and implementation of the Oak Ridge FFA, we:

‘ Identified and evaluated primary Region 4 controls and procedures for ensuring compliance
  with FFAs and ultimately CERCLA and the NCP. This included specific controls and
  procedures related to establishing FFA milestones and ensuring that milestones are met.

‘ Reviewed Fiscal Year 1999 through 2001 Federal Managers’ Financial Integrity Act reports
  for the Region 4 Waste Management Division to identify any material weaknesses related to
  oversight of federal facility cleanups.

‘ Interviewed officials (see footnote 10) to identify potential problems with: (1) Region 4
  oversight of Oak Ridge cleanup activities; (2) FFA requirements; (3) DOE compliance with
  major FFA requirements and milestones; and (4) Region 4 guidance related to federal facility
  cleanups.



        10
          Officials interviewed included: EPA Region 4 Federal Facilities Branch Chief, Section Chief, and FFA
Project Manager; DOE FFA Project Manager and Contractor Staff; and State FFA Project Managers.

                                                      15
‘ Prepared a listing and analyzed all CERCLA operable units at Oak Ridge and cleanup actions
  approved and initiated under the FFA from January 1992 through December 2001. This
  analysis included the media involved, contaminants of concern, milestone dates, selected
  remedies, remedial action status, five-year review requirements, and institutional controls and
  monitoring.

‘ Evaluated Oak Ridge land use control plans and remedial action five-year review reports for
  compliance with applicable policies and guidance, and to determine whether institutional
  controls were properly implemented, maintained, and monitored. This included a review of
  Record of Decisions issued between 1992 and 2001 to determine that responsibilities for
  implementation and maintenance of institutional controls were properly established in the
  Record of Decisions.

‘ Obtained FFA work plans with milestones and compared milestones for completion of cleanup
  actions to extension requests and/or actual completion dates.

‘ Obtained and reviewed environmental and water quality monitoring reports for ground and
  surface waters within and outside DOE facility boundaries to identify contaminant trends and
  related risks.

‘ Obtained and reviewed State public health assessments and studies to identify risks from Oak
  Ridge activities and related environmental contamination.

To evaluate the impact of funding on DOE compliance with the FFA, we:

‘ Reviewed FFAs for requirements related to DOE budgets, annual plans, and EPA involvement
  in DOE planning and budgeting process; and evaluated reports, plans, and correspondence
  related to these FFA requirements.

‘ Interviewed Region 4 and DOE Oak Ridge staff (see footnote 10) regarding the FFA planning
  process, EPA’s involvement in DOE’s budgeting for remedial cleanups, the reasons for any
  funding shortfalls, and impacts of any funding problems on accomplishment of major
  milestones.




                                               16
                                                                                  Appendix 2

          Prior Reports on Federal Facility Cleanups
We reviewed various management, evaluation, and audit reports that directly or indirectly related
to federal facility cleanups. The principal reports reviewed are listed below:

EPA OIG Reports:

   ‘           Superfund Audit Report, Laboratory Data Quality at Federal Facility Superfund
               Sites, No. 7100132, March 1997.

   ‘           Resource Conservation and Recovery Act Audit Report, Report on the Tank
               Waste Remediation System (TWRS) Program for the Hanford Federal Facility,
               No. 2000-P-00012, March 30, 2000.

   ‘           Superfund Audit Report, Backlog of Five-Year Review Reports Increased Nearly
               Threefold, No. 1999-P-218, September 30, 1999.

DOE Internal Management Reports:

   ‘           Tritiated Wastewater Treatment and Disposal Evaluation for 1994, No. DOE/RL-
               94-77, August 1994.

   ‘           Office of Environmental Management Reports: Accelerating Cleanup, Paths to
               Closure, June 1998, and Status Report on Paths to Closure, March 2000.

   ‘           A Review of the Environmental Management Program (a.k.a.: The Top to Bottom
               Review), February 4, 2002.

DOE OIG Reports:

   ‘           Sale of Land at Oak Ridge, No. DOE/IG-0502, May 2001.

   ‘           The Decontamination and Decommissioning Contract at the East Tennessee
               Technology Park, No. DOE/IG-0481, September 2000.

   ‘           Waste Characterization at Oak Ridge, No. ER-B-00-03, June 2000.

   ‘           Decontamination and Decommission at the East Tennessee Technology Park, No.
               ER-B-99-01, December 1998.




                                               17
  ‘       Groundwater Remediation at the Savannah River Site, ER-B-96-02, June 11,
          1996.

General Accounting Office Reports:

  ‘       Nuclear Cleanup - Difficulties in Coordinating Activities Under Two
          Environmental Laws, GAO/RCED-95-66, December 1994.

  ‘       Department of Energy - National Priorities Needed for Meeting Environmental
          Agreements, GAO/RCED-95-1, March 1995.

  ‘       Environmental Protection - Issues Facing the Energy and Defense Environmental
          Management Programs, GAO/T-RCED/NSIAD-96-127, March 1996.

  ‘       Nuclear Cleanup - Completion of Standards and Effectiveness of Land Use
          Planning Are Uncertain, GAO/RCED-94-144, August 1994.

  ‘       Superfund - More Emphasis Needed On Risk Reduction, GAO/RCED-96-168,
          May 1996.

  ‘       Federal Facilities - Consistent Relative Risk Evaluations Needed for Prioritizing
          Cleanups, GAO/RCED-96-150, June 1996.

  ‘       Superfund - Progress Made by EPA and Other Federal Agencies to Resolve
          Program Management Issues, GAO/RCED-99-111, April 1999.

  ‘       Nuclear Cleanup - DOE Should Reevaluate Waste Disposal Options Before
          Building New Facilities, GAO-01-441, May 2001.

  ‘       Waste Cleanup - Status and Implications of DOE’s Compliance Agreements,
          GAO-02-567, May 2002.




                                          18
                                                                    Appendix 3

   Records of Decision Issued Under Oak Ridge FFA
  ROD                                                    Remedial   Remedy
  Date               Operable Unit Name                  Action *    Type**

 09/30/92            K-1070-C/D SW-31 Spring             IROD         (1)
 09/19/91            K-1417 A/B Drum Storage             IROD         (1)
 09/13/93            K-1407 B/C Ponds                     ROD         (1)
 01/23/98            K-1070 C/D G-Pit and Pad             ROD         (1)
 01/13/00            K-1070-A Burial Ground               ROD         (1)
 09/25/97            WAG 1 Surface Impoundments           ROD         (1)
 09/02/97            GATT (Gunite & Assoc. Tanks)        IROD         (1)
 10/06/92            WAG 13 Cesium Plots                 IROD         (1)
 07/07/98            MSRE D&D Fuel Salt Removal           ROD         (1)
 09/21/00            Melton Valley Watershed             IROD         (1)
 10/06/92            WAG 11White Wing Scrap Yard         IROD         (1)
 01/23/97            Bear Creek OU2 Rust Spoil            ROD         (3)
 06/16/00            Bear Creek Valley Watershed          ROD         (1)
 11/02/99            Environmental Management
                      Waste Management Facility           ROD         (4)
 06/28/91            United Nuclear Corp Disposal LF      ROD         (1)
 09/26/91            Mercury Tanks                       IROD         (1)
 09/30/92            Plating Shop Container               ROD         (2)
 09/12/94            UEFPC OU Nitric Acid Pipeline        ROD         (2)
 09/29/95            Kerr Hollow Quarry                   ROD         (2)
 02/21/96            Filled Coal Ash Pond                 ROD         (1)
 07/10/97            Union Valley                        IROD         (3)
 09/29/95            Lower Watts Reservoir                ROD         (2)
 12/28/95            ORAU-South Campus Facility           ROD         (3)
 09/23/97            Clinch River/Poplar Creek            ROD         (3)
 08/17/95            Lower East Poplar Creek              ROD         (1)

* ROD - Record of Decision
  IROD - Interim Record of Decision


**Remedy Type
(1) Source Control/Containment
(2) No Further Action Required
(3) Institutional Controls
(4) Environmental Management Waste Management Facility




                                            19
20
                                                                                               Appendix 4

                   Potential Contaminants of Concern
Reports of Oak Ridge Dose Reconstruction, Volume 6, Screening-Level Evaluation of Additional
Potential Materials of Concerns (the Report of Project Task 7, July 1999) included various levels
of screening for the following contaminants of potential concern11:

•       Arsenic
•       Asbestos
•       Beryllium Compounds
•       Boron carbide, boron nitride, yttrium boride, titanium boride, rubidium nitrate, triplex
        coating, carbon fibers, glass fibers, four-ring polyphenyl ether
•       Copper
•       Hexavalent Chromium
•       Lead
•       Lithium
•       Neptunium-237
•       Nickel
•       Niobium
•       Plutonium
•       Technetium-99
•       Tellurium
•       Tetramethylammoniumborohydride
•       Tritium
•       Zirconium




        11
           Reports of Oak Ridge Dose Reconstruction, Volumes 1-5, (July 1999) included studies related to the
releases of: Iodine-131, Mercury, Polychlorinated biphenyls (PCBs), Radionuclides, and Uranium.

                                                       21
22
                  Appendix 5
Agency Response




      23
24
                                                                            Appendix 6

                                  Distribution
EPA Headquarters Offices

     Assistant Administrator for Solid Waste and Emergency Response
     Assistant Administrator for Enforcement and Compliance Assurance
     Director, Federal Facilities Restoration and Reuse Office
     Director, Federal Facilities Enforcement Office
     Comptroller (2731A)
     Agency Followup Official (2710A)
     Agency Followup Coordinator (2724A)
     Associate Administrator for Congressional and Intergovernmental Affairs (1301A)
     Director, Office of Regional Operations (1108A)

EPA Region 4

     Regional Administrator
     Director, Waste Management Division
     Chief, Federal Facilities Branch
     Audit Followup Coordinator/Liaison

EPA Office of Inspector General

     Inspector General (2410)




                                           25
